<html>
<title> - TRANSPORTATION WORKERS IDENTIFICATION CREDENTIALS FOLLOW-UP</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
       TRANSPORTATION WORKERS IDENTIFICATION CREDENTIALS FOLLOW-UP 

=======================================================================

                                (110-93)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                COAST GUARD AND MARITIME TRANSPORTATION

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                            JANUARY 23, 2008

                               __________


                       Printed for the use of the
             Committee on Transportation and Infrastructure

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

40-626 PDF                       WASHINGTON : 2008 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 




































             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                 JAMES L. OBERSTAR, Minnesota, Chairman

NICK J. RAHALL, II, West Virginia,   JOHN L. MICA, Florida
Vice Chair                           DON YOUNG, Alaska
PETER A. DeFAZIO, Oregon             THOMAS E. PETRI, Wisconsin
JERRY F. COSTELLO, Illinois          HOWARD COBLE, North Carolina
ELEANOR HOLMES NORTON, District of   JOHN J. DUNCAN, Jr., Tennessee
Columbia                             WAYNE T. GILCHREST, Maryland
JERROLD NADLER, New York             VERNON J. EHLERS, Michigan
CORRINE BROWN, Florida               STEVEN C. LaTOURETTE, Ohio
BOB FILNER, California               RICHARD H. BAKER, Louisiana
EDDIE BERNICE JOHNSON, Texas         FRANK A. LoBIONDO, New Jersey
GENE TAYLOR, Mississippi             JERRY MORAN, Kansas
ELIJAH E. CUMMINGS, Maryland         GARY G. MILLER, California
ELLEN O. TAUSCHER, California        ROBIN HAYES, North Carolina
LEONARD L. BOSWELL, Iowa             HENRY E. BROWN, Jr., South 
TIM HOLDEN, Pennsylvania             Carolina
BRIAN BAIRD, Washington              TIMOTHY V. JOHNSON, Illinois
RICK LARSEN, Washington              TODD RUSSELL PLATTS, Pennsylvania
MICHAEL E. CAPUANO, Massachusetts    SAM GRAVES, Missouri
TIMOTHY H. BISHOP, New York          BILL SHUSTER, Pennsylvania
MICHAEL H. MICHAUD, Maine            JOHN BOOZMAN, Arkansas
BRIAN HIGGINS, New York              SHELLEY MOORE CAPITO, West 
RUSS CARNAHAN, Missouri              Virginia
JOHN T. SALAZAR, Colorado            JIM GERLACH, Pennsylvania
GRACE F. NAPOLITANO, California      MARIO DIAZ-BALART, Florida
DANIEL LIPINSKI, Illinois            CHARLES W. DENT, Pennsylvania
DORIS O. MATSUI, California          TED POE, Texas
NICK LAMPSON, Texas                  DAVID G. REICHERT, Washington
ZACHARY T. SPACE, Ohio               CONNIE MACK, Florida
MAZIE K. HIRONO, Hawaii              JOHN R. `RANDY' KUHL, Jr., New 
BRUCE L. BRALEY, Iowa                York
JASON ALTMIRE, Pennsylvania          LYNN A WESTMORELAND, Georgia
TIMOTHY J. WALZ, Minnesota           CHARLES W. BOUSTANY, Jr., 
HEATH SHULER, North Carolina         Louisiana
MICHAEL A. ACURI, New York           JEAN SCHMIDT, Ohio
HARRY E. MITCHELL, Arizona           CANDICE S. MILLER, Michigan
CHRISTOPHER P. CARNEY, Pennsylvania  THELMA D. DRAKE, Virginia
JOHN J. HALL, New York               MARY FALLIN, Oklahoma
STEVE KAGEN, Wisconsin               VERN BUCHANAN, Florida
STEVE COHEN, Tennessee
JERRY McNERNEY, California
LAURA A. RICHARDSON, California
VACANCY

                                  (ii)


        SUBCOMMITTEE ON COAST GUARD AND MARITIME TRANSPORTATION

                 ELIJAH E. CUMMINGS, Maryland, Chairman

GENE TAYLOR, Mississippi             STEVEN C. LaTOURETTE, Ohio
RICK LARSEN, Washington              DON YOUNG, Alaska
CORRINE BROWN, Florida               HOWARD COBLE, North Carolina
BRIAN HIGGINS, New York              WAYNE T. GILCHREST, Maryland
BRIAN BAIRD, Washington              FRANK A. LoBIONDO, New Jersey
TIMOTHY H. BISHOP, New York, Vice    TED POE, Texas
Chair                                JOHN L. MICA, Florida
LAURA A. RICHARDSON, California        (Ex Officio)
JAMES L. OBERSTAR, Minnesota
  (Ex Officio)

                                 (iii)



































                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................    vi

                               TESTIMONY

Fanguy, Maurine, TWIC Program Manager, Transportation Security 
  Administration.................................................     3
Marks, Judy F., President, Lockheed Martin, Transportation and 
  Security Solutions.............................................    18
Porcari, John, Secretary, Maryland Department of Transportation..    18
Salerno, Rear Admiral Brian, Assistant Commandant for Safety, 
  Security, and Stewardship, U.S. Coast Guard....................     3

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

Fanguy, Maurine..................................................    33
Marks, Judith....................................................    38
Porcari, John D..................................................    47
Salerno, Rear Admiral Brian......................................    50

                       SUBMISSIONS FOR THE RECORD

Salerno, Rear Admiral Brian, Assistant Commandant for Safety, 
  Security, and Stewardship, U.S. Coast Guard, response to 
  question by Rep. LaTourette....................................    10

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


      TRANSPORTATION WORKERS IDENTIFICATION CREDENTIALS FOLLOW-UP

                              ----------                              


                      Wednesday, January 23, 2008

                  House of Representatives,
    Committee on Transportation and Infrastructure,
   Subcommittee on Coast Guard and Maritime Transportation,
                                                    Washington, DC.
    The Subcommittee met, pursuant to call, at 2:00 p.m., in 
Room 2167, Rayburn House Office Building, Hon. Elijah E. 
Cummings [Chairman of the Subcommittee] presiding.
    Mr. Cummings. This Subcommittee will come to order.
    Today, the Subcommittee convenes to receive an update on 
the roll-out of the Transportation Worker Identification 
Credential, more commonly known as the TWIC Card.
    On July 12th of this last year, the Subcommittee convened 
for its first hearing on the TWIC Card in the 110th Congress. 
During that hearing, a number of questions were raised, both 
about how the enrollment process would function and 
particularly about how the waiver process for those initially 
determined to be unqualified to hold the TWIC would be managed. 
At the end of that hearing, a number of questions remained 
unanswered, in large part because the enrollment process had to 
actually commence before some details about how it would 
proceed could be known. As a result, I promised that, at that 
time, that the Subcommittee would reconvene to receive a status 
report on the roll-out of TWIC. That promise is hereby 
fulfilled with the hearing we convene today.
    The TWIC enrollment process has now been underway for 90 
days. The Transportation Security Administration, which is 
represented by Ms. Maurine Fanguy, the TWIC Program Manager, 
reported to the Subcommittee that as of January 11th, 49 out of 
147 planned enrollment centers had been opened. Approximately 
109,000 pre-enrollments have been initiated. Just under 50,000 
enrollments have been completed. Just under 12,000 physical 
TWIC Cards have now been distributed to workers in the maritime 
community.
    Some problems with the enrollment process have been 
encountered. For example, the TSA originally estimated that 
750,000 individuals in the maritime community would enroll in 
the TWIC Program, but it now estimates that at least 1 million 
individuals will need TWIC Cards. Extensive wait times have 
also been encountered by some individuals who were picking up 
and activating their TWIC Cards; though I understand that 
Lockheed Martin is planning to allow individuals to set up 
appointments to pick up their cards, and appointments can now 
be made to complete the enrollment process.
    There are important questions about the enrollment process, 
including questions that are being posed of us by workers in 
the maritime industry, that we will ask of our witnesses a 
little bit later on in this hearing. However, while we have 
waited several years for the roll-out of TWIC, it appears that 
this time was used constructively to put in place the processes 
that are enabling the relatively smooth roll-out that is now 
underway. I commend the parties involved, including TSA and its 
contractor, Lockheed Martin, for their efforts.
    Importantly, the TWIC Card is intended to be used to ensure 
that those who pose a threat to the security of our Nation's 
maritime facilities and vessels are not allowed access to the 
secured areas of these properties. While the card is finally 
being distributed to those who work in and around the maritime 
industry, the Coast Guard has not announced when land-based 
facilities will need to begin to use the cards to control 
access to secured areas. At the same time, the Coast Guard has 
not yet promulgated the role that will explain which types of 
vessels will need to utilize the card to control access to 
secured areas. Until those two components of the TWIC-based 
security system are in place, the TWIC Card cannot serve its 
intended purpose.
    Therefore, we are eager to hear from the Coast Guard's 
representative, Rear Admiral Brian Salerno, as to when these 
two important announcements will be made. That is something 
that we are extremely interested in. I am also pleased that 
today's hearing will give the Subcommittee the opportunity to 
hear from a major port, the Helen Delich Bentley Port of 
Baltimore. Former Congresswoman Bentley is in the room.
    We are very glad to have you. It is nice to have a port 
named after you, too, in my city. I really appreciate that.
    He will testify regarding the port's experiences with the 
TWIC Card and the enrollment process thus far, represented by 
Maryland's Transportation Secretary John Porcari, whom it is my 
honor to welcome to the Subcommittee. The port will also be 
able to give insightful information on how its security 
officials are incorporating the TWIC Card into existing access 
control measures.
    As many of you who follow this Subcommittee know, I am 
convinced that simply holding a hearing to discuss matters is 
not an adequate step to truly addressing the matter. Hearings 
must be followed by vigilant oversight of promised actions and 
by ongoing investigations of continuing developments. TWIC will 
be a central feature in the maritime security regime in our 
Nation going forward, and our Subcommittee will continue to be 
vigilant about the roll-out of this security measure. I look 
forward to today's testimony. I emphasize that we will 
reconvene the Subcommittee on this topic whenever it is 
necessary to receive an update or to address issues as they 
arise.
    With that, I am very pleased to yield to the distinguished 
Ranking Member of this Subcommittee, Mr. LaTourette.
    Mr. LaTourette. Thank you, Mr. Chairman, and thank you for 
this hearing. I think this is our first hearing of the new 
year. So happy new year to you, and I look forward to working 
with you in 2008, as I enjoyed working with you in 2007.
    The Subcommittee is meeting this afternoon to continue its 
oversight over the implementation of the Transportation Worker 
Identification Credential program at U.S. ports. After more 
than 4 years of delay, the Department of Homeland Security is 
receiving applications for the TWIC, and it is in the process 
of issuing TWIC Cards to maritime workers in ports nationwide. 
This includes the Port of Cleveland where the TSA has begun 
enrolling merchant mariners, port workers, truck drivers, and 
others. It started that process, I believe, in November.
    I hope that the witnesses will give us an update on the 
progress that is being made in Cleveland and in other ports 
since the beginning of the roll-out. The TWIC is a critical 
component of our multi-layered port security framework. I thank 
all of the witnesses for appearing this afternoon, and I look 
forward to receiving an update on the implementation process 
and a report on the lessons that have been learned over the 
past 4 months.
    Again, thank you, Mr. Chairman. I yield back my time.
    Mr. Cummings. Thank you very much.
    I understand, Mr. Taylor, you have an opening statement.
    Mr. Coble.
    Thank you very much.
    We will now call on Rear Admiral Brian Salerno, the 
Assistant Commandant for Marine Safety, Security and 
Stewardship, the United States Coast Guard. Ms. Maurine Fanguy 
is the TWIC Program Manager for the Transportation Security 
Administration.
    We want to thank both of you for being here. We'll start 
with you, Rear Admiral.

STATEMENTS OF REAR ADMIRAL BRIAN SALERNO, ASSISTANT COMMANDANT 
  FOR SAFETY, SECURITY AND STEWARDSHIP, U.S. COAST GUARD; AND 
 MAURINE FANGUY, TWIC PROGRAM MANAGER, TRANSPORTATION SECURITY 
                         ADMINISTRATION

    Admiral Salerno. Good afternoon, Mr. Chairman, Ranking 
Member LaTourette and distinguished Members of the 
Subcommittee. Thank you for this opportunity to update you on 
the progress and on our future plans for the TWIC Program.
    As has been reported, TSA began enrollment in mid-November. 
So far, only a small percentage of the total estimated 
population of maritime workers has been enrolled. Nevertheless, 
this is a strong indication that the extensive preparations 
that have been made over the past few years have finally begun 
to bear fruit and that we are now progressing towards the level 
of security that we envisioned in the Maritime Transportation 
Security Act and in the SAFE Port Act.
    As we move forward, we are also very mindful of the effects 
that TWIC requirements will have on individuals and their 
livelihoods, and so we continue to strive to achieve the right 
balance so that we obtain the necessary level of security and 
at the same time facilitate commerce.
    Since enrollment began, the Coast Guard has assisted TSA 
and Lockheed Martin by serving as a conduit of information to 
affected worker populations in port communities. We also 
receive feedback from the maritime customers on the enrollment 
process, and by working together with TSA, we help to identify 
areas of potential improvement. Correcting problems as they 
occur is especially important as we move forward to enrolling 
the vast majority of maritime workers in the months ahead.
    As an example, based on field observations, we are working 
with TSA to develop the process whereby maritime workers may 
schedule an appointment, as you mentioned, Mr. Chairman. This 
is responsive to the feedback we have received from our 
customers that indicates significant time could be saved and 
would streamline the overall process.
    As enrollment moves forward, we are also working on the 
proposed rulemaking that will address the requirements for 
regulated vessels and facilities to obtain electronic card 
readers, which will be used to verify the TWIC holder's 
identity. Card readers are, as you mentioned, a key step in 
fully realizing the security benefits of TWIC. However, there 
are technical challenges which remain, and there are 
potentially adverse effects on small businesses and small 
vessels, which we must address as part of this rulemaking 
effort. We know from experience with the overall TWIC Program 
that a simple concept often masks a great deal of complexity, 
and so we continue to collaborate with our stakeholders and to 
move forward deliberately and thoughtfully to leverage the 
security benefits and capabilities of TWIC in a risk-based 
manner.
    A key component of the new rule will be the operational and 
technical data from the TWIC reader pilot tests required by the 
SAFE Port Act. TSA and the Coast Guard have identified 
geographically diverse ports and vessel operators willing to 
participate in the reader pilot testing. These tests are 
planned for in the Ports of Los Angeles/Long Beach, New York/
New Jersey, and Brownsville, Texas. Vessel operators, 
specifically Catalina Express in California, the Staten Island 
Ferry system in New York and Watermark Cruises, a small 
passenger vessel operation in Annapolis, Maryland, have also 
volunteered to participate and have received grants to purchase 
and to install readers. In addition, we reached an agreement 
just this past week with Magnolia Marine of Vicksburg, 
Mississippi, to perform a pilot test on a towing vessel.
    The initial planning and testing protocols have been 
developed, and we look forward to deploying and testing readers 
in real-world environments in the coming months. We will not 
publish the final TWIC reader requirements until the pilot 
project is complete.
    In the meantime, to maximize the security benefits of the 
current TWIC requirements, the Coast Guard intends to purchase 
and to deploy handheld readers to be used during routine and 
unscheduled vessel and facility security exams. After the 
compliance state is reached in a given port, the Coast Guard 
will use the card readers to randomly check the validity of an 
individual's TWIC. This is an interim measure until the card 
reader requirements are established.
    While we have made significant strides in the initial 
deployment phases of this program, we acknowledge that the 
process has presented some challenges, and inevitably, we will 
encounter more in the months ahead as can be expected in any 
new endeavor of this magnitude and complexity. However, as we 
have done in the past, we will to the very best of our ability 
continue to address each new challenge with a careful eye on 
the public interest and customer concerns. We will be pleased 
to keep you informed on our progress.
    Thank you, Mr. Chairman. I look forward to your questions.
    Mr. Cummings. Thank you very much.
    Ms. Fanguy.
    Ms. Fanguy. Good morning, Chairman Cummings, Ranking Member 
LaTourette, and distinguished Members of the Subcommittee. My 
name is Maurine Fanguy, and I am the Program Director for the 
Transportation Worker Identification Credential Program, also 
known as TWIC. I appreciate this opportunity to update this 
Subcommittee on the progress that we have made since I last 
testified before you in July.
    Today marks 90 days since we began TWIC enrollment. In that 
short amount of time, we do have some major accomplishments to 
report. We have enrolled over 56,000 workers. We have pre-
enrolled over 120,000 workers at 54 enrollment centers across 
the country. We have partnered with 19 local businesses, 
unions, and industry groups to take TWIC to the workers at 
their places of business.
    As an example, in Baton Rouge, we have partnered with 
several companies, such as Exxon Mobil and Shell, to set up 
mobile TWIC enrollment centers, and we have processed over 
2,000 workers across these locations. We have reached over 
2,000 enrollments daily, and that number is climbing. We have 
sustained average enrollment times of just over 10 minutes.
    TWIC is the largest biometric Smart Card program of its 
kind in the world. As leaders in Federal credentialing, we 
continually analyze data from the field to find ways to 
streamline processes, to refine the technology and to make TWIC 
easier and more convenient for the workers. We receive nearly 
daily field reports from our TSA Government Quality Assurance 
Team, from the Coast Guard and from Lockheed Martin. This 
information is critical in managing the program, in identifying 
issues early and in resolving problems quickly.
    As an example, during the first few weeks in Baton Rouge, 
metrics for wait times and throughput were higher than we 
wanted. I, personally, visited stakeholders there to discuss 
our plan of action, including increasing the number of 
workstations fivefold and in offering mobile enrollment to 
stakeholders there. Current metrics show that wait times are 
down, and we will continue to track wait times to ensure that 
they are within range. I will be back in Baton Rouge next week 
to follow up with stakeholders and to ensure the effectiveness 
of our plan.
    Another example is in the area of card activations. When 
TWIC first rolled out, we offered appointments for initial 
enrollments. We have received feedback from workers that this 
is a convenient option, and it keeps wait times down on the 
enrollment side. When workers come back to pick up their cards, 
we have found that wait times in some cases are longer than we 
would like. This is not acceptable to us, and we are taking 
immediate action to increase capacity, to reduce wait times, 
and to improve customer service for card activation. In that 
spirit, we are piloting card activation appointments in Baton 
Rouge in early February. This will be rolled out nationally 
after successful piloting, and we believe it will make card 
activation more convenient for workers.
    We also have an aggressive plan to double activation 
through-put by the end of this month and to double it again by 
early March. We expect card activation capacity to match the 
pace of enrollment by early spring. With these new upgrades, 
card activation and pick-up will be much easier for workers. We 
closely monitor fingerprint quality metrics, and we are 
currently well within range of industry standards for 
fingerprint processing.
    We also are expanding on the success of the 19 mobile 
enrollment partnerships to date, and we are in active 
discussions with stakeholders across the Nation to take TWIC to 
the workers. We want to recognize the innovation of our port 
partners in the TWIC Program, such as the Port of Baltimore, 
who are leading the integration of the credential into their 
existing reader systems.
    We have several milestones to report on the TWIC reader 
pilot. We held kickoff meetings over the summer with five card 
reader pilot participants--the Port Authorities of New York and 
New Jersey, Los Angeles and Long Beach, and Brownsville as well 
as Watermark Cruises. Most recently, Magnolia Marine was 
selected to represent a broad range of operating environments. 
We are continuing to meet with interested stakeholders to 
identify additional participants. We published TWIC reader 
specifications in September. We used the Federal Advisory 
Committee process to jointly develop these standards with the 
people who will use these readers every day in their places of 
business. TSA and the Coast Guard sponsored an industry day in 
November, which was very well attended by reader manufacturers. 
This is an important step in fulfilling the mandates of the 
SAFE Port Act.
    The first 90 days represents a significant milestone as we 
roll TWIC into our multi-layered approach to securing our 
Nation's ports. We will continue to work with our partners--the 
Coast Guard, maritime stakeholders--and this Subcommittee to 
ensure the ongoing success of the TWIC Program.
    Thank you for the opportunity to appear today, and I would 
be happy to answer any questions.
    Mr. Cummings. Thank you very much.
    Rear Admiral, the original estimate was that there would be 
a need for 750,000 of these TWIC Cards. It appears that now 
that has been estimated to be 1 million individuals who will 
have to have them.
    Do you think that is an accurate number or do you think we 
are going to have to come back to revisit that?
    Admiral Salerno. Sir----
    Mr. Cummings. By the way, that is quite a few people, 
wouldn't you agree?
    Admiral Salerno. Oh, yes, sir. That is quite a number of 
people. The original estimate was actually 750,000, but there 
was a range, actually, applied to that as well--750,000 to 1.5 
million.
    Mr. Cummings. Okay.
    Admiral Salerno. I think, from what we have seen so far, 
the actual numbers will probably be at the upper end of that 
range, just as an estimate at this point. So it is much higher 
than the 750,000 but within that range.
    Mr. Cummings. Let us talk about these regulations because, 
certainly, we are very concerned about them. I understand what 
you are saying in that you have got to balance many things. You 
have got to make sure that when you do it, that it is done 
right. At the same time, as you probably know, our Subcommittee 
has been a little concerned about the Coast Guard and 
regulations. We have heard a lot of excuses as to why regs are 
not going out. Here, we have something that has deadlines set 
with it. You know, you talked about the pilot. Do you have a 
date? Is there a timetable for when you anticipate all of this 
being resolved? Because one of the other problems is--when we 
are dealing with business, there is one thing I know about 
business. Business folks need to know things. They need to know 
how to anticipate, so I am just trying to figure out--and of 
course, the employees and everybody. There are a lot of people 
involved in this. One of the reasons we come back is so that we 
can get answers so that we can get it out there to the maritime 
industry, to the port industry and to everybody to let them 
know what to anticipate. So help me with this.
    Admiral Salerno. Yes, sir.
    Well, specifically for the cards, there are some dates 
already established. For example, for merchant mariners, the 
25th of September 2008 is actually established in the 
regulation for mariners to have their TWIC. For the individual 
facilities--or for the ports, I should say--those dates will be 
announced in the Federal Register at least 90 days in advance 
of their required enforcement date. It can be longer than 90 
days, but at a minimum, there will be a 90-days' warning so 
that industry will have that notification.
    As far as the reader requirement and the rulemaking for 
that, there is a SAFE Port Act deadline. It is 2 years after 
the coming into effect of the law. So the time frame is early 
2009, I believe April 2009, when our goal is to have the 
regulations published.
    Mr. Cummings. I understand--and correct me if this is 
wrong--as I understand it, those who do not have TWIC Cards can 
be given access to a secured area of a maritime facility if 
they are escorted by a TWIC holder or are monitored by a TWIC 
holder using a technology system that at least allows the 
owner-operator of a facility to respond quickly if the non-TWIC 
holder enters an unauthorized area or engages in unauthorized 
activities. I can envision a situation in which someone who 
really wanted to engage in a threatening or in even a 
terroristic activity could overpower an escort or could act 
quicker than someone monitoring technology could respond. I can 
imagine that this would particularly be a problem in the 
smaller facilities that do not have as many dedicated security 
personnel as larger facilities do.
    In that case, how much security is the TWIC system really 
providing if those who do not have TWICs can still gain access 
to secured areas of maritime facilities? How will you ensure 
that the monitoring technologies used in such situations really 
allow for rapid response? I am sure you thought about that 
before you got here.
    Admiral Salerno. Yes, sir.
    Mr. Cummings. Good.
    Admiral Salerno. Sir, let me try to answer it this way.
    The TWIC Card, itself, does not guarantee access to a 
facility. There is still a need to show that somebody who is 
seeking to gain entrance has business there. Now, perhaps they 
are an employee and they have business. If they are not an 
employee, they may still have legitimate business, but the 
facility owner has the responsibility to determine whether or 
not to grant access.
    Now, for somebody who does not have a TWIC, we allow that 
flexibility for them to gain access provided the facility owner 
determines that they have a need to be there; provided that 
there is an escort or, in some cases, if they are being 
monitored. For example, if a facility needed to have work 
performed--repair work--and they needed to bring in an outside 
construction crew or whatever, those people may not have TWICs, 
but they can be monitored while that work is being performed.
    We did not want to be overly prescriptive to the facility 
operators as to who would be allowed to gain access. We wanted 
to leave that to their determination. For us to be overly 
prescriptive would be very restrictive on how they could 
conduct their business. Quite honestly, they cannot work that 
way, so we tried to leave that degree of flexibility in the 
regulations. We allow the facilities to interact with the 
captains of the port to determine how they will manage their 
secured areas of their facilities as outlined in their 
facility's security plan.
    Mr. Cummings. All right.
    Ms. Fanguy, I have just two questions. What is the 
anticipated rate of rejection for mariners applying for TWIC?
    Ms. Fanguy. When we look at the TWIC population, we compare 
it, because of the security threat assessment process, to the 
Hazardous Materials Endorsement Program. On that program, we 
have approximately a 1 percent disqualification rate, but it is 
important to know that about half of those individuals receive 
a letter from us and they never respond back, so the rate could 
be lower if more people responded back to the initial 
determination letter.
    Mr. Cummings. What has been TSA's experience with the 
HAZMAT credentialing program regarding the number of workers 
who applied?
    Ms. Fanguy. The HAZMAT program to date has enrolled a 
little over 750,000 workers across the Nation. Again, like I 
said, we have about a 1 percent disqualification rate on 
HAZMAT.
    Mr. Cummings. So that is your comparison?
    Ms. Fanguy. Yes.
    Mr. Cummings. Okay. All right.
    Mr. LaTourette.
    Mr. LaTourette. Thank you, Mr. Chairman.
    Ms. Fanguy, I have two quick questions on your testimony 
just to clarify in my mind whether my interpretation is right 
or your testimony.
    Your testimony indicates that mariner regulations and port 
security plans preempt State regulations. It is my 
understanding that States are not preempted from imposing their 
own security requirements and that those plans and regulations 
must be in addition to and not in place of the Federal programs 
under Chapter 701, Title 46. So, I guess, I would ask you to 
clarify that first.
    Ms. Fanguy. As far as the mariner regulations, that is a 
Coast Guard question, but in terms of the TWIC regulation, 
which is different from some of the mariner regulations, the 
TWIC regulation does not preempt States from issuing a card for 
their own purposes. In some cases, the State actually may be 
the owner or operator of a port facility. So, in that case, 
they may have their own credential.
    Mr. LaTourette. Okay. Well, I will turn to the Admiral in a 
minute. I think that brought up my second point of confusion, 
and that is that your testimony indicates that TWIC regulations 
do not prohibit States from requiring background checks and 
badging systems for nonsecurity purposes. Again, it is my 
understanding that the TWIC regulations do prohibit States from 
requiring background checks and badging systems for whatever 
purposes, including security, but that those State background 
checks and badging may not be substituted for the TWIC.
    Ms. Fanguy. The TWIC is required for everyone who needs 
unescorted access to secured areas, but the TWIC regulations, 
to my understanding, do not preempt States from issuing their 
own additional credentials. The TWIC is the baseline 
credential, and everyone has to have one who needs unescorted 
access.
    Mr. LaTourette. Okay. Admiral, did you have something on 
the first part of the preemption?
    Admiral Salerno. Sir, regarding the federally mandated 
security plans at facilities, I will have to check with you to 
see if there is a Federal preemption requirement, and I will 
answer that for the record. Offhand, I am not aware of any 
situation that has come up where that has been an issue, but I 
will answer that for the record.
    Mr. LaTourette. Thank you. I would appreciate that.
    [Information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. LaTourette. I just have two more questions. The first 
one is, recently, the TWIC regulations were amended to clarify 
that local law enforcement officials who are not required to 
have a TWIC include local law enforcement personnel, fire 
department personnel and emergency response personnel.
    My question is: Have you identified or do you foresee 
identifying other segments of the workforce that may need 
unescorted access to vessels and to facilities?
    Admiral Salerno. Sir, there have been no additional 
categories of workers that have been identified at this point.
    Mr. LaTourette. Okay. Then the last question I had follows 
up a little bit on a question that the Chairman had, and that 
is this business about people without TWICs being escorted by a 
TWIC holder.
    My first question in that vein is: How many non-TWIC-
carrying individuals can one TWIC-carrying individual take? Is 
it a group of six or seven people, or is it one to one?
    Admiral Salerno. There are ratios established. It is one to 
ten, one TWIC holder for ten people in a secured area, one to 
five in a restricted area, which is a higher level of area 
defined by the facility owner.
    Just as one point of clarification, not just any TWIC 
holder necessarily can provide that escort. It is typically 
somebody who is an employee of the company or who is authorized 
by the company. So just by virtue of having a TWIC does not 
give a person the right to escort others.
    Mr. LaTourette. No. I get that, but one person who is 
appropriately in charge of escorting people can take up to 10 
on non-TWIC'd people?
    Admiral Salerno. That is correct, yes, sir.
    Mr. LaTourette. Thank you very much.
    Thank you, Mr. Chairman.
    Mr. Cummings. Mr. Taylor.
    Mr. Taylor. Thank you, Mr. Chairman.
    Thank you, Admiral, and Ms. Fanguy, for being here.
    I am curious. You talk about this being a fairly easy 
process, but let us walk through a scenario. A young person is 
going to the University of Southern Mississippi who will maybe 
want to work on an offshore supply vessel or on a tug this 
summer. What do they do to get a TWIC Card? Do they have to 
have a potential employer lined up? Do they have to have a 
letter from that person, or can they simply say, I want to keep 
all of my options open for this summer; I would like to get a 
TWIC Card in case I want to go to work for Tidewater or for 
Magnolia Marine this summer?
    Ms. Fanguy. In terms of the TWIC enrollment process, I can 
walk you through that.
    For any worker, you need to come to a TWIC enrollment 
center, or if we are offering a hosted mobile solution closer 
to where you work or to where you live, that is also an option. 
You would then arrive with your identity documentation, and we 
have a list of----
    Mr. Taylor. Okay. So let us walk the general public through 
that. So what kind of documentation do they need to show up 
with?
    Ms. Fanguy. It is very similar to the I-9 process. We have 
clearly laid out what the list of acceptable documents are on 
our Web site. That is also on the pre-enrollment Web site.
    Mr. Taylor. All right. They are?
    Ms. Fanguy. I do not have them memorized, but I can get 
back to you. As an example, an unexpired passport would be a 
proper identity document.
    Mr. Taylor. A driver's license?
    Ms. Fanguy. A driver's license would be one document. Then 
you would also need to have additional documentation that would 
then prove your citizenship status or your legal status here. 
So there are various combinations of documents, and we base 
that on the I-9 process. Then we are also looking at other 
documents that people may have in this industry.
    Mr. Taylor. Okay. So is it two documents? Is it five 
documents? This is a real-life scenario. There are kids right 
now trying to figure out what they want to do this summer.
    Ms. Fanguy. Absolutely.
    Mr. Taylor. So what do they need to do?
    Ms. Fanguy. There are certain documents. Like I said, a 
passport would be sufficient on its own. With documents that do 
not have a photograph or with documents that do not have the 
same kinds of security controls, you would require two. So it 
is very similar to the I-9 kind of process.
    Mr. Taylor. Okay. So a driver's license and a birth 
certificate?
    Ms. Fanguy. That would be acceptable.
    Mr. Taylor. All right. So do they have to have the 
potential employer Letter of Intent, or can they just say, I 
would like to----
    Ms. Fanguy. They do not need to have a Letter of Intent. 
They would simply show up at the enrollment center, and they 
would say that they plan to work in the maritime industry, and 
they would certify to that. They would go through the 
enrollment process, and we would complete the form online for 
them, take their photograph, take their biometric, scan in 
their identity documents, items like a driver's license or a 
passport. We would also look for additional security features 
in those documents to make sure that there is a higher level of 
identity proofing. At that point, we would then send the 
information off to be processed by the FBI for the criminal 
history records check. We would check legal status unless the 
person has provided very clear evidence like a birth 
certificate from the United States or a U.S. passport. We would 
then go check immigration databases to make sure that the 
person is here legally or under one of the categories that is 
specified in our regulations. The third piece is then we would 
check the person's information against the consolidated 
terrorism watch lists.
    When those three pieces are done, the information comes 
back. We then have a review process where we look at the 
results of that. In most cases, it is going to pass through 
very quickly. Then we will send it on for card printing. In 
some cases, we may get information that requires further 
review. At that point, we would go into our adjudication 
process. Many of those cases, after they have gone through 
human review, end up being checked off, the person who is 
approved for the TWIC, but in some cases, we may need more 
information from the person to prove that they are not a 
security threat, or for immigration, they may need to provide 
more documentation about their immigration status. So, at that 
point, it goes off for printing.
    We then call the person when their card is ready for pick-
up. The person comes in. They match their fingerprint. We give 
them their card.
    Mr. Taylor. Give us a breakdown of this $132 fee.
    What percentage of that goes to Lockheed? What percentage 
of that goes to the Coast Guard?
    Ms. Fanguy. $43.25 goes to Lockheed Martin for each 
enrollment. $17.25 goes to the FBI for the criminal history 
records check. Then the remainder of that fee pays for the 
terrorism watch list checks. It pays for the immigration 
checks. It pays for all of the quality assurance audits. It 
pays for program salaries and all of the contract oversight. So 
it pays for the remainder of it. No money goes--well, for the 
administrative law judge piece of it, we would compensate the 
Coast Guard for their costs if that comes up, but at this 
point, we have not paid the Coast Guard any money because we 
have not had any ALJ hearings.
    Mr. Taylor. For the record, Mr. Chairman, if you do not 
mind, I would be curious. I will back up and say I saw a lot of 
no-bid/cost-plus contracts issued after Katrina. In almost 
every instance, the taxpayer got ripped off. I would be 
curious, for the record, to know how Lockheed was selected. 
What was the criteria? Who were the other bidders? How much did 
they bid for this work?
    Thank you, Mr. Chairman.
    Mr. Cummings. Thank you very much.
    Could you give us that information, please?
    Ms. Fanguy. Absolutely.
    Mr. Cummings. Mr. Coble.
    Mr. Coble. Thank you, Mr. Chairman.
    It is good to have you all with us.
    Admiral, in response to the Chairman's question regarding 
the 750,000 maritime employees, you said the range extended 
from 750,000 to 1.25 million.
    Admiral Salerno. To 1.5 million, that is correct. I said 
750,000 to 1.5 million.
    Mr. Coble. Would it be nearer to that larger figure?
    Admiral Salerno. Yes, sir. That is our estimate at this 
point. It is still within that range, but it is tending towards 
the high end of the range.
    Mr. Coble. It is my understanding that this figure includes 
all workers who require unescorted access to secured areas of 
ports, to vessels, to other continental shelf facilities. It 
includes all of the credentialed merchant mariners as well as 
longshoremen, truckers, port employees, and others; is that 
accurate?
    Admiral Salerno. That is correct, sir. Those are the 
different categories of workers that were calculated as forming 
that branch of worker, that worker population.
    Mr. Coble. Ms. Fanguy, have you all received significant 
numbers of TWIC applications from any additional or unexpected 
segments of the maritime workforce during the first phase of 
the roll-out process?
    Ms. Fanguy. I think, when we all went into this, we knew we 
needed to have a flexible plan in place because no one had an 
exact list of how many port workers there are in every single 
city. So what we have seen is that, in some areas like the gulf 
coast, there are more workers because of some of the ways that 
the security plans are being implemented. So, as an example, 
some of the petrochemical companies are deciding to TWIC more 
people.
    So what we have done to address that is we are moving 
equipment around because, in other areas of the country, we 
have actually seen that the enrollment turnout is much, much 
lower. As we are now working very closely with stakeholders and 
now that TWIC is here, we are continuing to refine the 
estimates, really, on a daily basis, and so we are finding in 
some places that there may be actually fewer workers.
    So, all in all, we need to make sure that we stay flexible; 
that we watch the trends; that we take the data; and that we 
make sure that we have the equipment and the people in the 
places where the people need to enroll.
    Mr. Coble. Does the program have the capability to process 
the application and credentials for this close to 1.5 million 
applicants?
    Ms. Fanguy. Absolutely. That is the reason we went with a 
performance-based contract. So Lockheed gets paid one amount 
per worker regardless if there are a half a million workers, 
1.5 or 2 million. However many workers, the government is in a 
situation where the fees will pay for the contractor services, 
and then the fees are structured so that, as we scale up, we 
can bring on adequate resources to cover that larger 
population.
    Mr. Coble. I can address this either to you or to the 
Admiral, Ms. Fanguy.
    Recently, the TWIC regulations were amended to clarify that 
local law enforcement officials who are not required to carry a 
TWIC include local law enforcement personnel, fire department 
personnel, emergency response personnel, et cetera. Have you 
all identified other segments of the workforce that may need 
unescorted access to vessels and/or to facilities?
    Admiral Salerno. Sir, we have not identified any other 
categories that would need that form of access without a TWIC.
    Mr. Coble. I thank you. Thank you for being with us, each 
of you.
    I yield back, Mr. Chairman.
    Mr. Cummings. Thank you very much, Mr. Coble.
    Mr. Gilchrest.
    Mr. Gilchrest. Thank you, Mr. Chairman.
    There are 750,000 to 1 million people who are likely to get 
this TWIC Card; is that correct?
    Admiral Salerno. That is the anticipated population, yes, 
sir, 1.5 million.
    Mr. Gilchrest. Of those people, of those 750,000 who are on 
this list because they meet a criteria requiring them to get a 
TWIC Card, what percentage of the population that works at port 
facilities is that? I am going to ask, shouldn't everybody 
working at a port go through the process that you go through to 
get a TWIC Card for a background check?
    Admiral Salerno. Sir, it is a combination of people who 
need access to port facilities, including port workers, 
longshoremen and so forth, facility workers. About 220,000 or 
so are merchant mariners. Some percentage are truck drivers who 
need to go into a port area to pick up cargo and so forth, but 
they all have one thing in common, and that is that they all 
need to get into secured areas of port facilities. That is the 
common nexus.
    Mr. Gilchrest. What are the secured areas of a port 
facility--the gate, the gangplank? Is that left up to the port 
to decide what areas are secure or that need to be secured?
    Admiral Salerno. It is left up to the ports to define the 
areas that need to be secured, and that is done in consultation 
with the captain of the port in each jurisdiction. Ultimately, 
it is the facilities that look at their physical arrangements, 
at their barriers, at their security systems and so forth and 
make that determination.
    Mr. Gilchrest. If you have a TWIC Card at the Port of 
Baltimore, does it also get you into secured areas in 
Wilmington or in Philadelphia or in other places?
    Admiral Salerno. Not in and of itself. You would still have 
to show that you have legitimate business at that other port 
facility. We leave it to the facilities themselves to determine 
if in fact legitimate business is there.
    Mr. Gilchrest. Does a local port facility have--I am sure 
they do. At the Port of Baltimore, for example, do they talk to 
the Coast Guard or to the Customs agents? Is there a 
collaboration to determine what areas should require a TWIC 
Card and what areas should be more secure than other areas?
    Admiral Salerno. Yes, sir. There is an entity that was 
formed by the Maritime Transportation Security Act in each port 
area, and it is called the Area Maritime Security Committee. 
That is a forum whereby the Coast Guard and local law 
enforcement and industry representatives can jointly agree on 
what makes sense on a portwide basis within each geographic 
jurisdiction. Certainly, every facility has the option to meet 
individually with representatives at the captain of the port's 
office to discuss their particular plans in greater detail.
    Mr. Gilchrest. I am assuming there is some accomodation for 
whoever would be classified as a "temporary worker" to get a 
TWIC Card or for mechanics who may be required?
    Admiral Salerno. Yes, sir. Well, there are foreseeable 
instances where workers would need to gain access to a facility 
to perform legitimate business but would not otherwise be 
required to have a TWIC in the normal course of their 
employment. Provisions can be made for that. The facility could 
corner off an area where specific work needs to take place, so 
we would not require those people to have TWICs but the area 
itself would be controlled.
    Mr. Gilchrest. What is the time frame again for completing 
this project where everyone who needs a TWIC Card will get a 
TWIC Card?
    Admiral Salerno. Well, sir, for mariners, it is 25 
September of this year. Then for facility workers, it is 
extended out further. I believe early next year is when all of 
the port areas will have enrollment centers, but we have not 
published the required dates for any of the port areas yet for 
when all of the facilities are required to start checking for 
TWICs. We expect to start doing that in the near future, but we 
have not published in the Federal Register the actual 
enforcement dates.
    Mr. Gilchrest. I see. Thank you very much.
    Thank you, Mr. Chairman.
    Mr. Cummings. Thank you very much.
    As to getting the folks in, following up on Mr. Gilchrest, 
you have got the mariner deadline coming up fairly soon. Where 
are we with regard to mariners' signing up? Either one of you.
    Admiral Salerno. Sir, I do not have the numbers for how 
many mariners have signed up yet. I asked that same question 
earlier, and I do not have that number unless Maurine does.
    Ms. Fanguy. So we, actually, ran a query in our database. 
We have just under 6,000 mariners.
    Mr. Cummings. And you are approximating how many are out 
there?
    Ms. Fanguy. A little over 200,000. So keep in mind 90 days. 
We have just gotten started. If you look at where we have come 
over the last 2 months, we have actually enrolled over 50,000 
workers. So we got started in October and rolled out slowly. We 
have now, really, notched it up. We are at 54 ports as of 
today. We are going to continue to roll out. So we are now 
clocking along at about 2,000 enrollments a day. We think that 
number is going to go higher, so it can be somewhat misleading. 
The other thing is that sometimes people do not--they may not 
identify themselves as a mariner. They may have decided that 
they did not want to provide that information. It is not 
mandatory, but for people who have self-identified as mariners, 
it is right under 6,000 to date.
    Mr. Cummings. Let us talk really quickly, Ms. Fanguy, about 
the whole waiver system. What is happening with that?
    Ms. Fanguy. As far as appeals and waivers, like I said, we 
have based this on the HAZMAT program, which has been running 
successfully for about 2-1/2 years.
    Mr. Cummings. Well, what has happened so far with this 
program?
    Ms. Fanguy. So, thus far, we have sent out right under 900 
initial letters. So what that letter would say is that there 
may be some further clarification that we would need on your 
immigration status. We may have received information back from 
the FBI's criminal justice information system. Perhaps there is 
an open disposition. In some cases, the person may already have 
the information on hand and have turned that back around to us.
    On appeals, which is where either--it could be an open 
disposition. It could be some kind of immigration question. It 
could be some kind of other issue, but that is where the person 
is saying your information is not 100 percent correct. We are 
able to process those in about 1 to 2 days. We have received 
381 appeals to date. We have granted 217. The other ones are 
under review. Anybody who is not granted an appeal would 
automatically go into the waiver process.
    At this point, in terms of waivers, we have received eight 
waiver requests, but again, keep in mind that people have 60 
days to request an appeal or a waiver, so we expect that there 
are a lot of people who may have received a letter who have not 
written back to us because in the HAZMAT program we really find 
that people typically wait until that last week to respond back 
to us.
    Mr. Cummings. So, if a person applies and is rejected for 
the TWIC and then appeals that rejection as far as possible--to 
the ALJ, right--to the TSA final decision-maker and even to the 
Court of Appeals--will that person be excluded from accessing a 
secured area?
    Ms. Fanguy. At this point, because we have not laid out any 
of the compliance dates, that person can go to work. That 
person does not have to miss a day at work. The message we have 
been trying to get out to workers is that, if you think that 
you may have some kind of issue that you need to work with us 
on, it is actually--it may seem counterintuitive, but it is 
actually important for that person to enroll early so that we 
can work that person through the entire process.
    Mr. Cummings. But do you think that is part of the reason, 
therefore, that people--you know, we still have a lot of people 
to get to overall. Do you think that some people anticipate 
that there is going to be a problem, so therefore, it is like 
not wanting to know that you have got an illness, and the next 
thing you know--in other words, waiting until the very end?
    Ms. Fanguy. I think it is probably similar to health kinds 
of issues. I mean, some people want to know. Some people----
    Mr. Cummings. I agree with you. I am just trying to figure 
out how we get to those people so that--because what I 
anticipate is that you are going to have towards the end a 
whole group of folks who are going to be coming in, many of 
them with problems, because they are going to be the ones who 
had the most fear for whatever reasons. Then we will end up 
trying to process all of these folks who have problems as 
opposed to the normal flow where you may have a few problems 
coming in. I think you will get a lot at the end.
    Do you follow me?
    Ms. Fanguy. Absolutely. So we are----
    Mr. Cummings. I am just trying to figure out how to 
encourage these people to come forward early. What are you 
doing, or what is anybody doing in that regard?
    Ms. Fanguy. The biggest thing that we have been trying to 
do is to really form partnerships with our port partners, with 
various unions. We actually have a conference call this evening 
about disqualifications and just questions and answers for a 
local union. Those are the types of things that we are happy to 
do because we know people have a lot of questions. So it is 
really those partnerships, having our national TWIC Stakeholder 
Communications Committee, where we can really feed information 
and can answer questions in a timely manner and then doing like 
we do in the HAZMAT program, which is that when somebody has an 
issue or when they have a question, we try to be very 
responsive and work with that person. If they need more time, 
we are happy to give them time extensions and really work with 
them to make sure that we can get the right information to make 
the final determination.
    Mr. Cummings. Mr. Poe.
    Mr. Poe. I have no questions.
    Mr. Cummings. Thank you very much.
    Any other questions?
    Mr. LaTourette.
    Mr. LaTourette. I just have one follow-up question, 
Admiral. In order to make changes to the boundary of a secured 
area, do the owners of port facilities and/or vessels need to 
amend their port facility security plans under Section 70103?
    Admiral Salerno. Yes, sir, they do. They would amend their 
plan and then submit that change to the captain of the port for 
approval.
    Mr. LaTourette. Okay. Thank you very much.
    Thank you, Mr. Chairman.
    Mr. Cummings. Thank you very much.
    Thank you both for being with us. We look forward to 
continuing to work with you, and I thank you for moving the 
program along. Thank you very much.
    We will now hear from Judy Marks, who is the President of 
Lockheed Martin Transportation and Security Solutions; and John 
Porcari, who is Secretary of the Maryland Department of 
Transportation, and the Helen Delich Bentley Maryland Port 
Administration, he is in charge of that.
    Ms. Marks, we are going to hear from you first, and then 
from you, Mr. Porcari. Thank you all for being here. We really 
appreciate it.

   STATEMENTS OF JUDY F. MARKS, PRESIDENT, LOCKHEED MARTIN, 
   TRANSPORTATION AND SECURITY SOLUTIONS; AND JOHN PORCARI, 
        SECRETARY, MARYLAND DEPARTMENT OF TRANSPORTATION

    Ms. Marks. Chairman Cummings, Ranking Member LaTourette, 
and distinguished Members of the Subcommittee, thank you for 
the opportunity to discuss the Transportation Worker 
Identification Credential, or TWIC, Program. I look forward to 
sharing the progress we have achieved on this important 
program. I ask that a copy of my written statement be inserted 
into the record.
    Before discussing our role in depth, I would like to 
provide a snapshot of where we are in the enrollment phase of 
this critical program. We have been operational for 
approximately 90 days, and I am proud to report we are 
deploying to more sites faster than any other credentialing 
program in operation today. To date, we have enrolled almost 
56,000 individuals, and over 12,000 of those enrollees have 
activated or have received their credentials. We have deployed 
to 54 of 147 port locations as of this week and are enrolling 
approximately 2,000 workers every day.
    We are proud that Lockheed Martin has met every contractual 
milestone on the TWIC Program, including deploying to some of 
our Nation's largest ports, such as L.A./Long Beach, New York/
New Jersey and Houston. We are reporting very good overall wait 
times at enrollment facilities, but perhaps, most importantly, 
we have received a greater than 90 percent customer 
satisfaction rating to date based on actual customer surveys.
    As part of the Lockheed Martin proposal to TSA, we 
recognized that effective stakeholder outreach and 
communications would be absolutely critical for success. 
National outreach is facilitated by the TWIC Stakeholder 
Communications Committee, the TSCC, which meets every month and 
is attended by representatives from 49 organizations ranging 
from labor unions, industry associations and other related, 
interested groups.
    We also recognize that information provided by TWIC 
applicants is personal in nature and is subject to privacy 
restrictions. The TWIC Program addresses this issue in several 
ways. First, all TWIC applicant data is protected 
electronically from the moment it is obtained. All of our data 
communications are processed over secure network connections, 
and all data is encrypted using technology that has never been 
compromised. We also have identified an individual who is the 
privacy advocate of the TWIC Program.
    We anticipate employing over 400 field personnel this year 
at the peak of the maritime population enrollment period. The 
selection and training of these personnel are of paramount 
importance to our success. All of our personnel must 
successfully complete 40 hours of technical and customer 
service training and are subject to the same TSA security 
threat assessment as each and every enrollee. In addition, we 
incorporate lessons learned at operational enrollment locations 
to further improve the customer service experience for 
enrollees as well as provide on-the-job updates to our 
employees, the trusted agents.
    We have taken steps to make this process as convenient as 
possible. This includes a strong focus on the use of mobile 
enrollment and card issuance. We work with major stakeholders 
at all ports to enroll as much of that population as possible 
at stakeholder facilities. These may be employee facilities or 
union halls. These may be industry association offices. We will 
also now coordinate the issuance of cards at these same 
locations wherever possible, again, to provide convenience.
    As with any program involving an FBI background fingerprint 
check, a percentage of the population will have their 
fingerprints rejected by the FBI as unreadable. We are applying 
quality algorithms to each set of fingerprints captured at our 
enrollment centers. However, if repeated attempts to capture 
high-quality prints are unsuccessful, the applicant can be 
educated at the time of enrollment on the possibility of an FBI 
rejection. To date, we have seen approximately a 2 percent 
national reject rate of fingerprints, roughly half of the 4 
percent nationwide average experienced by the FBI on similar 
programs.
    We have experienced difficulties in the gulf coast region 
due to significant differences in the original population 
estimates. In Baton Rouge, for example, the initial estimates 
for enrollment were in the 6,000-person range. Current 
estimates appear to be closer to 40,000 to 60,000. This 
initially resulted in higher-than-expected demand, which 
resulted in longer-than-desired wait times. We have done 
multiple things to address this.
    We have taken key actions, such as implementing our surge 
plans. We have enrolled more than 2,000 individuals, as Ms. 
Fanguy said, through mobile enrollment, and we have seen a 
significant improvement of both through-put and wait time in 
the gulf. We will continue applying these lessons learned and 
adjust and surge as required to meet the demand.
    Mr. Chairman, as you know, Lockheed Martin is involved in a 
number of Homeland Security programs. With TWIC, we are 
particularly proud to have the opportunity to work on a program 
that will protect the engine of America's economy, her ports. 
In doing so and in strong partnership with TSA, we bring to 
bear our technical skill and resources to implement this 
initiative in a manner that is both secure and convenient.
    Thank you, and I look forward to answering your questions.
    Mr. Cummings. Thank you very much.
    Secretary Porcari, thank you for being with us.
    Mr. Porcari. Good afternoon, Chairman Cummings, Ranking 
Member LaTourette and Members of the Subcommittee.
    For the record, I am John Porcari, Secretary of the 
Maryland Department of Transportation and Chairman of the 
Maryland Port Commission, representing the Chairman's home 
State of Maryland.
    With me here today is Mr. Jim White, the Executive Director 
of the Maryland Port Administration; and Mr. Homer Williams, 
our Port Security Director.
    Before I brief the Committee on the TWIC implementation 
currently in place at the Port of Baltimore, I would like to 
very briefly tell the Committee a little bit about the Port of 
Baltimore. I think it helps to have a sense of the big picture, 
of the port implementation of TWIC, and it helps in the 
understanding of how all of these components fit together.
    The Port of Baltimore is one of the oldest ports in the 
United States. It was founded in 1706. It comprises 7 public 
terminals and about 30 private terminals. There are 45 miles of 
waterfront land in the public and private terminals in the Port 
of Baltimore. Of the 361 ports in the country, we are number 1 
in the country for the importation of forest products; number 1 
for roll-on/roll-off cargo; and number 2 in the Nation for the 
export of cars and trucks. Our total cargo value was almost $37 
billion last year. We have 16,500 direct jobs and over 300,000 
jobs all together related to the port. So it is a vital part of 
our State's economy, and we pride ourselves on having an 
outstanding relationship with our port security partners. Among 
them is our own Maryland Transportation Authority Police, the 
U.S. Coast Guard, and the U.S. Customs and Border Protection.
    On November 21st, we began the enrollment for TWIC. We had 
been anticipating this date for a long time, and we were 
prepared in many ways. For example, last summer, we installed a 
new high-tech, automated gate system for trucks that is already 
compliant with the TWIC software. As of January 17th of this 
year, we have just under 1,500 persons who had enrolled for the 
TWIC Cards at the Baltimore enrollment site. Of those nearly 
1,500, 367 TWIC Cards were activated and issued. We estimate 
that there are about 25,000 persons who will be requesting or 
needing a TWIC Card for unescorted access to the Port of 
Baltimore. So, clearly, we have a ways to go on this.
    As we have implemented this, some issues have come up. For 
example, there have been instances of enrollees having to make 
multiple visits to the Baltimore enrollment site because the 
TSA computers have been down or because information previously 
submitted for enrollment was lost on the TSA servers. 
Additionally, some slow enrollment overall can be attributed to 
a couple of issues, including, we believe, the cost of the 
card, the payment arrangements for the card by the public and 
private institutions, and the reluctance of some individuals 
due to concerns about background information that may 
disqualify them.
    We have engaged in public outreach to expand the 
penetration of TWIC Card usage. We believe a public outreach 
program is the key to the success of it. The Maryland Port 
Administration, which oversees the public terminals, has met 
with the private terminals, with the trucking associations, 
with the port customers and with other stakeholders to update 
them on the TWIC Card and on the enrollment process. We issue 
weekly electronic bulletins to the Baltimore maritime community 
advising persons conducting business on MPA terminals of the 
process and how to do it. We have information on our port Web 
site.
    Despite these efforts, we believe that a greater effort by 
both TSA and Lockheed Martin is needed to publicly announce 
TWIC requirements and its implications through local television 
and radio broadcasts. This would help with general awareness.
    Mr. Porcari. We are working directly with labor on the 
implementation of TWIC. For example, labor union employees have 
been encouraged to enroll now. Although it is not yet required, 
by enrolling now someone who didn't receive their card early 
could appeal if necessary and receive a TWIC card prior to 
enforcement date.
    We are, however, finding situations that are arising that 
still need answers. For example, day laborers, we have many 
temporary and day laborers on the terminals. They have 
expressed concern about the cost of the card. They may not be 
there regularly, and the cost of the card can be a barrier.
    For vendors and contractors, vendors may not have one 
single driver who exclusively makes deliveries to the port 
terminals. That firm may not want to have all the drivers 
obtain a TWIC card to access to regulated facilities. That can 
lead to a number of escort requirements.
    Also, contractors may have difficulty soliciting and 
fulfilling contracts on our facilities because they don't have 
employees or subcontractors that have cards--valid cards at the 
time of implementation.
    For the cruise terminals, they are regulated under 
maritime--the MTSA. TWIC will have an impact as we manage the 
entrance and exit of passengers to the cruise terminals. That 
includes our cruise shuttles, vendors, taxis and buses to 
support the cruise industry; and we believe some flexibility in 
those guidelines is going to be required.
    Besides the TWIC card, there are no clear guidelines for 
the authorized purpose for access to the port, so many ports--
as we are--are faced with the prospect of maintaining two 
systems for port access, the TWIC card and the identification 
card that we currently use.
    At the private terminals, there is also grappling with 
issues of escort requirements and the business rules themselves 
as well as the cost of the cards.
    So on behalf of Governor O'Malley, who in his State of the 
State Address once again emphasized the importance of port 
security as a State goal, I appreciate the opportunity to 
testify today.
    Mr. Cummings. Thank you very much.
    Ms. Marks, you heard the testimony of Secretary Porcari. 
And one of the things that I said when I took the Chairmanship 
of this Committee is that we wanted to certainly make sure that 
we did everything in our power to protect the homeland, but we 
also wanted to make sure that we balanced it and tried to keep 
a free flow of trade going. Certainly, protecting lives is 
number one. But as I listened to him--and I know you heard 
him--this is the Secretary of a major port, and he just cited 
some concerns. And I know at any time you are starting 
something up, you are going to have problems, because you have 
to knock out all the kinks. And the thing that we are trying to 
do here is to try to make sure that we go forward using our 
resources effectively and efficiently.
    The lost information--you talked about lost information; is 
that right, Mr. Porcari?
    Mr. Porcari. [Nonverbal response.]
    Mr. Cummings. People having to come back and forth, 
apparently some sites being down, I guess there were some 
computers down. That happens, I know.
    We have heard reports in some other instances where 
Lockheed Martin had provided inadequate--did not provide 
adequate support to enrollment centers. One enrollment center 
shut down, running out of toner. Two to 5 hour delays in 
appointment time had been encountered. One enrollment center 
responsible for serving a port in which it was estimated that 
30,000 individuals who needed a TWIC card was found to be 
staffed by a single individual who was responsible for managing 
the enrollment processes, taking fingerprints, taking digital 
photos and answering the phones. It has been reported that 
additional people were sent to this enrollment center after the 
Coast Guard reported this unacceptable situation to your 
personnel.
    I just want to know what are you doing early on to prevent 
such situations from being repeated at other ports and how 
closely are you tracking and monitoring each center to ensure 
that mariners are given good service.
    Because the problem is a lot of these folks may be a little 
bit confused about the process, but then they go and they go 
through these hurdles, and they don't understand all of this. 
All they know is they have to spend this money, and they have 
to sit there. And the back and forth I think really it has an 
effect on the student that Taylor talks about--Congressman 
Taylor talked about on the people who live in our districts 
who--most of us have some kind of port facilities in our 
districts, so they are affected. And you know who they come 
back and talk to? Us. So I am just wondering, what is happening 
here?
    Ms. Marks. Well, Mr. Chairman, first, let me be clear that 
we have run into some challenges early on, and it is what we 
can learn from that, how we can apply those lessons. We have 
not waited 90 days, but we are certainly reporting out to you 
after 90 days, and 54 ports of the 147.
    First of all, there is--when you think about people that we 
inconvenience that have to come back, we did run into an issue 
in the Port of Baltimore in the first week we opened. One of 
the lessons we learned, as opposed to opening a port on day 
one, we do something we call a soft launch now. Where, instead 
of opening a port on a Monday, we open it on a Thursday; and we 
spend the first 3 days, if you will, doing true on-the-job 
training with test cases and test workers so that each of our 
employees in that locale--and they are all locally hired--can 
have real experience.
    The way we do that--unfortunately, with the first five 
people from Baltimore is we stayed in that training mode even 
after we went live on a Thursday and that data was not 
captured. We really are certainly sorry that those employees 
were inconvenienced to have to come back again.
    Let me address what you said and walk you through, if you 
will, our top three lessons learned.
    One, you heard Ms. Fanguy say, from the TSA, even though we 
had set up appointments and we have an active pre-enrollment 
Web site and help desk that people can call in both English and 
Spanish and set up appointments and give their initial 
information, we did not have that on the activation side. What 
we learned is we had walk-ins coming in for both enrollment who 
chose not to pre-enroll and all the walk-ins for activation. We 
have changed that. Starting next week in Baton Rouge we are 
prototyping an appointment system for activation; and that will 
go nationwide as soon as we see some success, which we expect 
to see in Baton Rouge.
    The second area is the population shifts versus the initial 
estimates. You are right. We expected in some location to see 
very few. If you look at different parts of the Nation, the 
gulf area has had significantly more population response than 
we ever anticipated.
    Baton Rouge is the best example. Again, we anticipated 
6,000 people. We started with two people down there. We 
increased that fivefold, because we really do believe that is 
going to be 40 to 60,000 people. And we put mobile stations in 
the stakeholders, and we have taken it to them. So it is a win-
win situation. The stakeholders can get their employees 
together in a convenient location.
    The other area which we have learned is on, again, on 
enrollments. How do we start? We have given ourselves longer 
lead times from leasing a facility to getting the Internet 
connection, to getting the equipment present, making sure 
everyone trained is present. And I think what we are seeing, 
whether it is through customer satisfaction surveys, reports 
issued by the Coast Guard, is we are seeing we continue to 
apply these lessons learned and the process is going smoother 
with, again, average enrollment times now at about 10 minutes.
    Mr. Cummings. I hope you will take a message back to your 
folks and that is that I think all of us understand that 
business and Lockheed Martin is out to make a profit. No 
problem with that. Our concern is that when you have got 
situations though when you have got a shortage of personnel 
because of personnel equipment or whatever and it hurts the 
process, I don't know what gives there. In other words, I don't 
know who gains, but I want to make sure that we are getting our 
money's worth--that is, the United States--because when we 
don't have personnel there or we don't have equipment there, 
that is a real, real major problem.
    I know--again, I said from the very beginning, I know you 
are working out the kinks, but some things--when we have shifts 
and come to find out the shift--you then come out with 10 
times, 7 times as many people as you thought you had, that 
starts me to wondering what other things are we underestimating 
and what other problems will we encounter.
    One of the things that happened as a result of Deepwater I 
must tell you and I think that almost every Member of this 
Committee was concerned about Lockheed Martin and this contract 
because we saw some things happen in Deepwater that is all 
still being worked out. We said, okay, let's make sure that 
this works out very well because we have so much depending on 
it.
    And all I am saying is I am sure I have full faith that it 
is going to work out, but, in the meantime, what is happening 
is that these folks that Secretary Porcari is talking about, 
these are just regular, everyday people trying to do the right 
thing, take care of their families, pay their little fees or 
whatever and give a hard day's work and go home. And then for 
them to have any hurdles really creates a problem, particularly 
when you paid 100 some dollars to have the process done. Do you 
follow me?
    Ms. Marks. Yes.
    Mr. Cummings. I hope you will take that message back.
    Mr. LaTourette.
    Mr. LaTourette. Thank you very much.
    Ms. Marks, first to you. Mr. Taylor talked a little bit 
about competitive bidding and so forth and so on, and the Safe 
Ports Act has two parts to it where the trucks are concerned. 
One is the card itself, and then there is the reader. We know 
from the earlier testimony that there is a pilot program now 
going on with the reader technology and just a couple of 
questions.
    Are the cards that are being issued through the contract 
with Lockheed Martin, are they the cards that are being used in 
the pilot program, to your knowledge?
    Ms. Marks. Yes, sir, they are the cards; and Lockheed 
Martin has provided all the technical specifications to the 
Coast Guard and TSA to make sure that whatever reader is 
selected by whatever manufacturer will be interoperable.
    Mr. LaTourette. And my next question; and that is that the 
cards that are being produced by Lockheed Martin are capable of 
being used with a variety of different technologies, different 
readers, manufactured by different people>
    Ms. Marks. That is correct. Again, we provided the open 
standards for how to interface with the card; and Lockheed 
Martin does not manufacture card readers, sir.
    Mr. LaTourette. That was my next question. So you don't 
have a dog in the reader fight?
    Ms. Marks. No, we are happy to participate if desired, but 
we do not manufacture those card readers.
    Mr. LaTourette. Thank you very much.
    Secretary Porcari, I want to thank you for being here. And 
I don't have a question about the Port of Baltimore, but since 
you are here I would just like to take the opportunity to pick 
your brain and use your expertise, since you are the Secretary 
of Transportation for one of our great States.
    We are having a little bit of a debate here on Capitol Hill 
about a stimulus package, and I am happy to say that at this 
moment in time it seems to be a nonpartisan debate. It seems to 
be friendly. The administration seems to be willing to 
participate in it.
    One of the pieces that Members of this Committee always 
think are important, the jobs that can't be exported. We always 
say in the Committee, for every billion dollars of Federal 
infrastructure spending, it creates 47 and a half thousand 
jobs. I have that memorized in my head.
    But those who push back and say that infrastructure 
spending should not be part of the stimulus package say it is 
because we are not ready to go, and so you won't get the effect 
of the transportation spending immediately like you will if you 
have stimulus or some of the other things that are being talked 
about.
    When I talk to the director of our Ohio Department of 
Transportation, he indicates that any Department of 
Transportation worth its salt has some stuff on the shelf that 
they could let go to bid on within 90 days. I just ask your 
opinion of who is right?
    Mr. Porcari. Thank you, sir. I appreciate the question.
    I feel very strongly that we, like every other State, are 
ready to go. If you look at, as part of a stimulus package, 
highway and transportation construction in general really 
should be a part of it. Every month we advertise tens--
sometimes hundreds--of millions of dollars worth of contracts 
for construction. In the last 120 days or so, we put more than 
a billion dollars worth of contract awards out there. We can 
modify and adjust those schedules.
    This is desperately needed infrastructure work for the 
country. We have an almost generational neglect of our 
infrastructure. Much of it was built in the same era and is due 
for major rehabilitation or replacement.
    I think if we are careful in selecting the projects then 
the criteria should be that they need to be on the streets 
under contract very quickly. Every State could participate in 
that in a major way.
    Mr. LaTourette. I thank you very much for that answer.
    Since every once in a while the Chairman was kind enough to 
invite me up to a field hearing in Baltimore, how's the road 
construction at the end of the Baltimore-Washington Parkway 
going into Baltimore? Are we about done with that?
    Mr. Porcari. The Baltimore-Washington Parkway is a Federal 
road, part of it is State road, our responsibility, and part of 
it is City of Baltimore. The final portion you are referring to 
near Russell Street is very close to completion. It is a city 
project. It is a major investment by the City of Baltimore, and 
that is exactly the kind of project that is part of the 
stimulus package that would really pay dividends for 
generations to come.
    Mr. LaTourette. Thank you, Mr. Secretary; and once it is 
finished I would be happy to go to Baltimore again.
    Mr. Cummings. Very well. By the way, you can join us in 
trying to get some of these stimulus projects. We would be 
happy to join in with you on that.
    Mr. Larsen.
    Mr. Larsen. Thank you, Mr. Chairman.
    I apologize for not being here for the final panel, but I 
appreciate this follow-up hearing to the one we had in July 
where many of us expressed concerns about not just the rollout 
but also--or at least I and a colleague from Mississippi 
expressed concerns about the necessity and am still searching 
for the necessity of this program, frankly. Rolling it out 
successfully does not necessarily make us more secure. The 
question still remains, is how much more secure does the TWIC 
program make us versus any other number of things we can do? So 
I just wanted to start there with that statement.
    But the question is for Ms. Marks. In Tacoma and Seattle 
and Everett, the numbers I have right now is, in Tacoma, they 
rolled out in early November and about 37 percent of 
projected--of the estimated population has enrolled, 1,500 out 
of 4,000, about 37 percent. And in mid-December Seattle started 
enrollment--granted a month later--but of the roughly 26,000 
population about 900 have enrolled, about 3.6 percent.
    Even given another month--I don't know where it is today, 
but it seems it is an enrollment that is not as fast, taking 
place as quickly in Seattle. Do you have any thoughts why that 
might be occurring?
    Ms. Marks. Now, we are seeing variability across the 
Nation. If I were to add all of the--and I won't count this 
week's sites, but if you take about the 52 sites through last 
week, I would tell you we are operating at about 40 percent 
capacity of those people actually showing up to enroll, which 
means 60 percent down time we are waiting for enrollees.
    So we have continued to reach out to ports, and we have 
reached out to the Coast Guard. We are doing stakeholder 
relations, we have a database of several thousand industry 
associations, labor unions, everyone we can get involved to 
continue to try and drive people. Because whether it is 750,000 
or 1.5 million people, when those compliance dates are set with 
90 days' notice, all of a sudden people are going to realize it 
is time to go; and we have to, obviously, be able to respond.
    Mr. Larsen. What is the Lockheed contract with TSA, say, 
about payment then? If you are 60 percent--if you are down 60 
percent of the time waiting and let's say the enrollments--we 
don't hit the time lines, who is punished? Is the longshoreman 
punished for not having a TWIC that he didn't get in or are you 
punished because you didn't do the job on the average to let 
people know they are supposed to do this?
    Ms. Marks. We are on a performance-based contract where we 
receive $43.25 for every person who enrolls, whenever they 
enroll. So we are absolutely motivated to get the 40 percent to 
100 percent--I would love 110 percent, to be quite honest, as a 
businesswoman. But we are absolutely motivated to do that.
    The challenge, again, will come when the Coast Guard does 
declare compliance at that port and people all really do try 
and show up. So we have a surge plan in place. We will extend 
our hours. We will open additional locations as needed around 
the port. And certain ports like New York, New Jersey, we 
actually have three locations already open, one in Hackensack, 
one at Staten Island and another one at the Port of Manhattan 
ferry terminal; and we will continue to add locations. It is in 
our best interest for our business model to work, to get the 
people through as efficiently as possible.
    Mr. Larsen. Is it Mr. Porcari?
    Mr. Porcari. Porcari.
    Mr. Larsen. How many people do you anticipate hiring at the 
Port of Baltimore, direct hires to help with the implementation 
of TWIC?
    Mr. Porcari. The port security staff is very small. We have 
directly approximately three employees on it right now.
    Mr. Larsen. I'm sorry, you have three of your port security 
employees on TWIC?
    Mr. Porcari. We have three of our port employees that are 
permanently, including Mr. Williams, that are assigned to port 
security issues. We also have our law enforcement agency. It is 
a separate issue. But it is relatively small. That is for our 
public terminals only. There are also private terminals.
    Mr. Larsen. So who is going to be responsible for escorting 
the unescorted? The folks who are responsible for escorting at 
the Port of Baltimore for the end user, any of your vendor 
services? Will the cruise ship be responsible? Will you have to 
be responsible? Will you do hand-offs? How are you sorting 
through that?
    Mr. Porcari. Some of it still needs to be sorted through. 
In some cases, we will do that. We will use our law enforcement 
officers. In many cases, it will have to be the employees of 
the cruise line or the steamship company or stevedoring company 
that will have to do the escorting.
    Mr. Larsen. Does that responsibility fall on the port to 
ensure that that escorting then happens for that day for 
delivery?
    Mr. Porcari. Yes. Ultimately, we have the responsibility on 
our port properties to make sure that where escorts are 
required that everyone is escorted.
    Mr. Larsen. Only on the public property?
    Mr. Porcari. Yes, only our public terminals.
    Again, the private terminals have similar security 
requirements they are responsible for implementing.
    Mr. Larsen. And do you have an estimate on what your costs 
will be into your calendar year for that?
    Mr. Porcari. I don't know for escorting.
    Mr. Larsen. Not the unit, but for the port. I'm sorry. For 
the port?
    Mr. Porcari. I can tell you just our public terminals and 
not the escorting, the law enforcement costs, what we pay for 
our police activities are over $3 million per year. It is a 
very, very significant part of our operating budget.
    Mr. Larsen. Thank you.
    Mr. Cummings. Thank you very much.
    Just before we get to Congresswoman Richardson, I just want 
to ask one question and follow up on what Congressman Larsen 
was asking you. It sounds like we have a major gap here. We 
have the TWIC card operation going on, Secretary Porcari, but 
then once you get past the TWIC card you have to have these 
people sort of overseeing it----
    Mr. Porcari. Right.
    Mr. Cummings. --and that seems that is creating then I 
guess a problem for you. I mean, I know you are going to figure 
out a way to do it, because you are going to do it, but that 
seems to create a major problem there. Because it is not enough 
just to go through all these changes that we are going through 
to have the TWIC card. You have got to have some kind of 
observation, somebody to watch all of this. So at what point do 
you begin to do that?
    I guess you are beginning meeting now, so how do you come 
up with your plan as to how to make sure you got a tight 
situation?
    Mr. Porcari. Well, we do a head start on this in some ways, 
Mr. Chairman. Our current port access requirements restrict 
unescorted visitors as well. We are currently requiring escorts 
for those visitors.
    The same would be true under the TWIC implementation. I 
guess one way we think about the TWIC card is it will be a 
requirement to get on the terminals. We would still, beyond 
that, have to restrict access through our own identification 
cards which we are currently doing. So much of that is actually 
in place now.
    Mr. Cummings. Ms. Richardson.
    Ms. Richardson. Yes, thank you, Mr. Chairman.
    And, first of all, I want to start off with my comments by 
applauding your efforts. I think if we had in government more 
often where programs were actually implemented and kind of an 
initial recap of what is happening happened often within 90 
days, we would have a lot fewer problems than what we have 
today. So thank you for your leadership.
    I have essentially two questions--actually, one question 
and one comment. I will give my comment first.
    You talked about some of the concerns, and one of the 
concerns you mentioned at the port of Baltimore was the day 
laborers and how to deal with that. I represent both areas, the 
Port of Long Beach and the Port of Los Angeles, and I would 
venture to suggest we may want to think of that concern as 
actually a positive. What I mean by that is I am not so sure we 
want a large amount of day laborers who have access to our 
vital resources. That may be something we say we need to draw 
the line on, and maybe it is not appropriate for anyone who 
happens to be able to drive a truck to be able to get on that 
property and jeopardize this entire country. So that is my 
perspective on that point.
    In terms of a question, can you walk through for me--I 
noticed in the report that approximately I think it was 817 
individuals have been sent initial disqualification letters. 
Two hundred and seventy have appealed; and of those who have 
appealed, 216, the appeals have been granted. So what I first 
want to say is I am encouraged to see that, for those people 
who are using the process, it seems to be working and, if it is 
fairly reasonable, they are having an opportunity to continue 
their gainful employment.
    But what happens when a person walks up--is there a 
document that is posted so they already know the interim 
potential disqualifying sections? Does someone actually meet 
with the person? It says that you send a letter, but a lot of 
people who are working sometimes in these types of jobs may not 
necessarily read the letter, may not be so inclined to follow 
the appeal process. There might be various barriers that are 
discouraging people do this. So what are we doing--since you 
have such an incredible success rate of those who do go through 
the process, what framework are you using right now for those 
who do not seek you out?
    Ms. Marks. Well, I would have to actually defer that to 
TSA. Ms. Fanguy, who was in the first panel, actually answered 
that directly. But I will add that, right now, any--we post on 
all the ports where we are located, plus on the TSA Web site, 
plus on multiple TWIC Web sites what the qualifications are in 
order to obtain a TWIC card.
    Ms. Richardson. Well, Mr. Chairman, I apologize. I wasn't 
here for the first panel. I was in another meeting. But if the 
response is what you said, these various Web sites, I would 
venture to tell you that in my community not everyone has 
access to a computer, not everyone is utilizing Web sites. We 
might find that hard to believe, but in a lot of communities 
that is not the case. So I am more concerned, if that other 
gentleman is still here, or representative, to find out what 
else are we doing? Are they still here?
    Mr. Cummings. I think they left, but we will make sure we 
get that information for you.
    Ms. Richardson. Okay, thank you very much.
    Mr. Porcari. Mr. Chairman, if I may.
    Mr. Cummings. Mr. Porcari.
    Mr. Porcari. Ma'am, the day laborer issue, I appreciate 
your perspective. I would point out that on any marine terminal 
we are constantly doing construction work of new facilities. We 
have ship repair and other intermittent employees who are 
there; and for some of the important parts of our port 
business, for example, auto processing, we may be in a 
situation where we require extra labor because of temporary 
volumes. And so it is a major issue for us, the occasional or 
casual worker that we want to employ at the port. But, in 
fairness to him or her, the cost of this TWIC card is a major 
obstacle.
    Mr. Cummings. When you say "auto processing", you mean roll 
off?
    Mr. Porcari. Yes, sir. Literally driving cars off of ships 
or on them, which is very labor intensive.
    Ms. Richardson. We probably have a slightly philosophical 
disagreement there. I would venture to say that a lot of 
companies should invest and have enough employees and pay 
people appropriate benefits and have those people on hand to do 
the good work that they do and not just rely upon being able to 
bring someone in arbitrarily who is not able to take care of 
the various benefits that are available. So we probably just 
have a philosophical disagreement on that.
    Mr. Cummings. Thank you very much.
    Mr. Porcari, since we have you here and this is the 
Committee that deals with the 361 ports, are there any issues 
that you would like to bring before us before you go, things 
that you would like to see us address? Not in this hearing, of 
course.
    Mr. Porcari. First, Mr. Chairman, I appreciate the 
Committee's leadership on a number of port issues. One of them 
is, obviously, the environment. And how we, at the same time we 
are promoting maritime commerce, respect and in fact enhance 
the environment and through our dredging programs and--a fact 
of life in the Chesapeake Bay--we are blessed with the 
Chesapeake Bay, but we had a lot of dredging to do just to 
maintain the channels.
    How we do that matters. As you well know, there were 
national models of beneficial reuse of dredge materials going 
on, some of them at the Port of Baltimore, where we are 
restoring wildlife habitat, among other things. We all want to 
be good environmental stewards. I think the Committee has done 
a good job of pointing that out in the past. As with your 
personal leadership on things like water research, we hope to 
be able to do more in the future.
    Mr. Cummings. By the way, I want to thank you for that, 
too.
    Mr. Larsen has a follow-up question.
    Mr. Larsen. Ms. Marks, you all are rolling out the Everett 
sign-up center on February 6th. Unfortunately, I am home 
February 4th and 5th. So I would like to explore with you the 
possibility of maybe sitting down with your folks just ahead of 
time to sort out how that day is going to go on the 6th.
    Ms. Marks. We would be delighted to have your support, look 
forward to it.
    Mr. Larsen. Great, we will follow up with you on that.
    And there was some discussion about refineries and the 
approaches one refinery is taking over the other. Are you 
getting any guidance from TSA or Coast Guard--most likely TSA--
on how to--not how to approach, not how to do outreach, but 
guidance on what numbers or what kinds of jobs at refineries 
need to have a TWIC card?
    Refineries--the four that are in my district, which are the 
only four north of central California on the west coast, in the 
lower 48 anywhere, basically operate upland but then have 
piers. There is no platforms. We are taking in crude oil, 
refining it and then sending it back out, either through 
pipeline on the land or send it back out as refined fuel on 
tankers to be delivered elsewhere. It seems it might be a 
different model in other places.
    Are you getting any guidance on how to approach which 
employees, how many employees, what kind of employees?
    Ms. Marks. No, we let TSA set the policy on who needs to be 
eligible for a TWIC. But what we have done at several 
refineries, not in your district, but we would explore any 
refinery that is willing to host us and basically give us an 
Internet line and the ability to enroll 50 workers, we will 
send one of our trusted agents and a mobile work station and do 
it right there.
    Mr. Larsen. If, in fact, a refinery determines that they 
need to have folks with a card.
    Ms. Marks. Yes, absolutely. And we have done that with 
Alero, with Exxon Mobile, with many companies.
    Mr. Larsen. There are four refineries in my district, 
employs about 2,000 people, plus about 800 contractors a day, 
between the four of them, but I can guarantee you very few of 
those folks are actually down on the pier getting anywhere near 
a tanker, so I think we need to probably explore that with TSA.
    Ms. Marks. Agreed.
    Mr. Cummings. One question, I want to go back to you, 
Secretary Porcari, and your exchange with Congresswoman 
Richardson on the day laborer situation. Who are these folks, 
Mr. Secretary? You expressed concern about them. The reason I 
raised this is because a while back Jesse Jackson had come to 
the Congress and he was concerned about TWIC cards because he 
felt that a lot of people who perhaps had worked for many years 
were now going to be subject to a situation. And maybe they had 
done something many years ago and they now are doing okay--I am 
just trying to figure out--and they were losing the opportunity 
to even make a living for their families.
    But who are these people? You expressed concern about them 
in your opening testimony. I want to make sure that you are 
talking about the same people that Congresswoman Richardson is. 
And maybe you are not. I don't know.
    Mr. Porcari. Perhaps the term "day laborer" is not the most 
accurate one for it. One example would be construction 
projects, paving or vertical building construction at the 
terminals where the contractors will bring their employees, 
they will bring sometimes temporary employees. There are 
subcontractors. There may be minority business subcontractors 
as part of these as well. All of them would either have to be 
escorted or TWIC credentialed.
    On any given day, we probably have hundreds of different 
kinds of either skilled trades working on the land side, on the 
ships themselves, on construction projects or things that I 
mentioned like auto processing. And while these companies all 
have an employee base, from time to time they are also adding, 
bringing in employees temporarily. And one of the benefits for 
us at the Port of Baltimore as an economic engine is it is 
virtually the last good-paying, family supporting, blue collar 
jobs that we have. So we want to maximize the potential. And 
there are--through those categories in particular there are any 
number of employees that may only be on the terminals 
temporarily.
    Mr. Cummings. Do you want to follow up?
    Ms. Richardson. Thank you, Mr. Chairman.
    I completely understand what you are saying. My sister 
works for Toyota and works on the distribution side and works 
with the people who are driving the cars off. To my knowledge, 
day laborers are not driving those cars off of those ships. If 
you have ever been there and you've seen it, it is at such a 
speed and such a precision, I would be really surprised that a 
day laborer person that you happen to grab--and, again, that 
may be where we are disagreeing from what we are calling day 
laborer, but that is not a day labor position, and I am quite 
well aware of that.
    My point is, when you talk about a construction company 
that is in there doing something, I personally believe I would 
rather see construction companies hire people that they have a 
team of people. Now, if they are in California, they bring 10 
people from Texas tomorrow, 5 people from New Mexico tomorrow. 
I would rather see construction companies hire appropriate 
people from our own region who would do the work and would be a 
part of their normal team, as opposed to, if I happen to need 5 
people today, I can grab someone from someplace else who we 
don't know, which to me gets at the very heart of what this 
program is all about. The point of the program is to ensure 
that the people who are there are people who we know and we 
know that they are not going to jeopardize our facility.
    So, to me, how I started my question is I am not so sure--
and I am a supporter of yours. I represent ports, and I want to 
make sure that the ability to do goods movement is at its 
maximum point, so I am with you on that.
    I was just pointing out that, on the term of day laborer, I 
am not so sure that us fixing that problem is really consistent 
with the goals of TWIC. Because I would venture to say to you 
that if it is someone we so don't know, maybe we don't want to 
be able to give them an extended pass for a certain period of 
time. Clearly, there should be exceptions to that rule; and I 
support you 100 percent with that. But I think we would have to 
be very careful when we look at rolling it out for an extended 
period for non-continual type of employees.
    Mr. Porcari. Thank you.
    Ms. Richardson. Thank you, Mr. Chairman.
    Mr. Porcari. Again, I think the term "day laborer" is 
probably not the right one here.
    Mr. Cummings. Ms. Marks, I am going to give you some 
questions as a follow-up; and we would like to have a report 
back to us in 90 days. We will give it to you so that we can 
get the report of what we want answered in the 90 days. As a 
matter of fact, we will make it 75 days. And then we will send 
it to you, Mr. Porcari, when we get it and just have your 
review of it; and we will do the same thing with the witnesses 
who appeared before.
    In other words, we want to see where we are in 75 days and 
want to see how things match up with some of the concerns that 
you had to just kind of measure--we are going to use you as--
sorry to tell you this--as sort of a guinea pig to kind of 
figure out what is happening in Baltimore. Maybe it is 
indicative of what is happening in other places.
    We will probably invite maybe four other port folks to give 
us their reports, also; and then we will share that with you, 
Ms. Marks, whatever their comments might be.
    Ms. Marks. Thank you, sir.
    Mr. Cummings. I don't think we will be calling another 
hearing, but we do want to kind of keep up with the situation 
because it is of such urgency.
    I want to thank everyone for being here today, and thank 
you both.
    [Whereupon, at 3:45 p.m., the Subcommittee was adjourned.]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
</pre></body></html>
